TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                    The Customer Account Data Engine 2
                  Program Management Office Implemented
                 Systems Development Guidelines; However,
                    Process Improvements Are Needed to
                          Address Inconsistencies



                                       September 30, Year

                              Reference Number: 2011-20-127




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.



 Phone Number | 202-622-6500
 Email Address | TIGTACommunications@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                                  HIGHLIGHTS


THE CUSTOMER ACCOUNT DATA                             corruption. Improvements are still needed to
ENGINE 2 PROGRAM MANAGEMENT                           ensure Program consistency. Specifically:
OFFICE IMPLEMENTED SYSTEMS                            1) systems development guidelines and related
DEVELOPMENT GUIDELINES;                               processes were not consistently implemented by
                                                      CADE 2 personnel, and 2) requirements and
HOWEVER, PROCESS IMPROVEMENTS
                                                      business rules were not sufficiently developed
ARE NEEDED TO ADDRESS                                 and traced to their sources before the CADE 2
INCONSISTENCIES                                       exit of design activities. The IRS implemented
                                                      corrective actions; however, some were not
                                                      developed or completed prior to the conclusion
Highlights                                            of our audit.

Final Report issued on                                WHAT TIGTA RECOMMENDED
September 30, 2011                                    TIGTA recommended that the Chief Technology
                                                      Officer ensure project test plans are developed
Highlights of Reference Number: 2011-20-127           timely; the Internal Revenue Manual and other
to the Internal Revenue Service Chief                 guidelines are revised to include Program-level
Technology Officer.                                   test plans; and a comprehensive Integrated
IMPACT ON TAXPAYERS                                   Master Schedule is developed. TIGTA also
                                                      made recommendations for the IRS to improve
The mission of the Customer Account Data              the processes associated with managing
Engine (CADE) 2 Program is to provide                 business rules and requirements.
state-of-the-art individual taxpayer account
processing and technologies to improve service        In its response, the IRS agreed with four of
to taxpayers and enhance Internal Revenue             TIGTA’s five recommendations and indicated
Service (IRS) tax administration. Once                that corrective action had been completed. The
completed, the new modernization environment          IRS disagreed with TIGTA’s recommendation to
should allow the IRS to more effectively and          revise the Enterprise Life Cycle guidance,
efficiently update taxpayer accounts, support         stating it is for project development and is not
account settlement and maintenance, and               intended to provide for detailed instructions on
process refunds on a daily basis, all of which will   developing a Program-level test plan. Rather,
contribute to improved taxpayer services.             the IRS agreed to reconcile two systems
                                                      development documents it considers as being
WHY TIGTA DID THE AUDIT                               consistent with the purpose, scope, and timing
                                                      of the Program Test Plan, and plans to maintain
The overall objective of this review was to           program-level guidance about the process.
determine if the CADE 2 Program Management            TIGTA agrees this alternative approach
Office planned and provided oversight for             addresses the condition.
Transition State 1 design activities in
accordance with systems development                   The Chief Technology Officer also stated that
guidelines, including applicable security             our finding regarding delays in developing the
provisions.                                           Program Test Plan appeared inaccurate, citing
                                                      uncertainty or unfamiliarity with the Program
WHAT TIGTA FOUND                                      Test Plan’s content was not a factor in the
The CADE 2 Program Management Office                  decision to defer delivery. However, during our
implemented guidelines to cover key systems           audit fieldwork, CADE 2 Program Management
development processes. Due to the critical            Office staff advised us that they were
nature of the system to the IRS mission,              considering not completing the Program Test
18 enhanced security controls above those             Plan, and only did so after TIGTA brought this to
required by security guidelines were added to         the attention of the CADE 2 Director for Delivery
the CADE 2 system to help protect data from           Management.
unauthorized access, modification, and
                                           DEPARTMENT OF THE TREASURY
                                                WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                         September 30, 2011


 MEMORANDUM FOR CHIEF TECHNOLOGY OFFICER

 FROM:                       Michael R. Phillips
                             Deputy Inspector General for Audit

 SUBJECT:                    Final Audit Report – The Customer Account Data Engine 2 Program
                             Management Office Implemented Systems Development Guidelines;
                             However, Process Improvements Are Needed to Address
                             Inconsistencies (Audit # 201020025)

 This report presents the results of our review of the Customer Account Data Engine 2 Program
 Management Office. Our overall objective was to determine if the Program Management Office
 planned and provided oversight for Transition State 1 design activities in accordance with
 systems development guidelines, including applicable security provisions. This review was
 requested by the Chief Technology Officer. It was included in our Fiscal Year 2011 Annual
 Audit Plan and addresses the major management challenge of Modernization.
 Management’s complete response to the draft report is included as Appendix X.
 Copies of this report are also being sent to the Internal Revenue Service managers affected
 by the report recommendations. Please contact me at (202) 622-6510 if you have questions or
 Alan Duncan, Assistant Inspector General for Audit (Security and Information Technology
 Services), at (202) 622-5894.
                                     The Customer Account Data Engine 2
                                   Program Management Office Implemented
                              Systems Development Guidelines; However, Process
                             Improvements Are Needed to Address Inconsistencies




                                            Table of Contents

Background .......................................................................................................... Page 1

Results of Review ............................................................................................... Page 4
          The Program Management Office Implemented
          Procedures to Manage Systems Development
          Activities and Ensure Executive Oversight .................................................. Page 4
          Systems Development Processes and Program
          Guidelines Were Not Always Consistent ..................................................... Page 7
                    Recommendations 1 and 2: .............................................. Page 10

                    Recommendation 3:........................................................ Page 12

          Requirements Management Processes Were Not
          Performed in Accordance With Established Guidelines ............................... Page 12
                    Recommendations 4 and 5: .............................................. Page 14


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................ Page 16
          Appendix II – Major Contributors to This Report ........................................ Page 19
          Appendix III – Report Distribution List ....................................................... Page 20
          Appendix IV – Outcome Measure ................................................................ Page 21
          Appendix V – Enterprise Life Cycle Overview ............................................ Page 22
          Appendix VI – Customer Account Data Engine 2 Transition States............ Page 23
          Appendix VII – Transition State 1 Integration Reviews .............................. Page 27
          Appendix VIII – The Customer Account Data Engine 2 High and
          Enhanced Requirements................................................................................ Page 29
          Appendix IX – Glossary of Terms ................................................................ Page 32
          Appendix X – Management’s Response to the Draft Report ....................... Page 36
                 The Customer Account Data Engine 2
               Program Management Office Implemented
          Systems Development Guidelines; However, Process
         Improvements Are Needed to Address Inconsistencies




                    Abbreviations

CADE          Customer Account Data Engine
CCB           Configuration Control Board
ELC           Enterprise Life Cycle
IMF           Individual Master File
IMS           Integrated Master Schedule
IRS           Internal Revenue Service
ReqPro        Rational RequisitePro
TIGTA         Treasury Inspector General for Tax Administration
                                   The Customer Account Data Engine 2
                                 Program Management Office Implemented
                            Systems Development Guidelines; However, Process
                           Improvements Are Needed to Address Inconsistencies




                                               Background

In August 2008, the Internal Revenue Service (IRS) Commissioner established the Modernized
Taxpayer Account Program Integration Office to manage the transition of the current individual
income tax processing, which consists of multiple computer systems for processing tax returns,
payments, and other transactions affecting taxpayer
accounts, into a more consolidated system. Working in          The Customer Account Data
conjunction with IRS business owners, the Program            Engine 2 Program is the highest
Integration Office decided to integrate elements from both   priority information technology
                                   1
the existing Individual Master File (IMF) and current          modernization project in the
Customer Account Data Engine (CADE) processes into a            Internal Revenue Service.
new CADE 2 Program. The proposed plan incrementally
transfers taxpayer accounts from the current IMF and CADE processing systems to a new
CADE 2 relational database.
The CADE 2 Program is the top information technology modernization project in the IRS. The
CADE 2 strategy involves three phases:
       •     Transition State 1. Modifies the IMF from a weekly cycle to daily processing;
             establishes a new relational database to store all individual taxpayer account
             information; and provides management tools to more effectively use data for
             compliance and customer service. The IRS plans to implement Transition State 1 in
             January 2012.
       •     Transition State 2. Launches a single processing system where applications directly
             access and update the taxpayer account database. It will continue efforts toward
             addressing previously identified financial material weaknesses. The IRS plans to
             implement Transition State 2 in January 2014.
       •     Target State. Consists of a single system using elements of the IMF and current CADE,
             eliminating all transitional applications used to link the current CADE, the IMF, and the
             Integrated Data Retrieval System. The complete solution is also planned to address all
             of the financial material weaknesses. As of April 28, 2011, the IRS had not established
             a Target State implementation date.
Appendix VI presents conceptual models for the As Is, Transition State 1 and 2, and Target State
process flowcharts for individual income tax accounts.



1
    See Appendix IX for a glossary of terms.
                                                                                               Page 1
                                The Customer Account Data Engine 2
                              Program Management Office Implemented
                         Systems Development Guidelines; However, Process
                        Improvements Are Needed to Address Inconsistencies


The CADE 2 Program Management Office was established with a mission to provide
state-of-the-art individual taxpayer account processing and technologies to improve service to
taxpayers and enhance IRS tax administration. It published a charter on January 28, 2010. The
CADE 2 Program Management Office plans to create a modernized processing environment
where applications both access and update an authoritative relational database to manage all
individual taxpayer accounts. The CADE 2 Program goals and scope are depicted in Figure 1.
                         Figure 1: CADE 2 Program Goals and Scope

                                          CADE 2 Program Goals
Establish a solid data foundation for the future by leveraging relational database processing
capability.
Address financial material weaknesses, demonstrate compliance with Federal Financial
Management System Requirements, and maintain a clean audit opinion.
Improve security and privacy posture by addressing identified weaknesses.
Continue the focus on moving away from 1960’s technology (i.e., aging infrastructure,
applications, and sequential flat file processing).
Demonstrate substantive progress toward achieving long-term viability.


                                       CADE 2 Program Scope
Establish the authoritative database for individual taxpayer accounts.
Replace the current IMF and CADE applications with a single, state-of-the art solution.
Expand the Integrated Production Model to include individual taxpayer accounts.
Provide daily outputs to the Integrated Data Retrieval System and other downstream systems in
support of daily processing.
Source: CADE 2 Program Charter Version 1.0, dated January 28, 2010.

To implement Transition State 1, the IRS established two systems development projects and
completed several prototypes. The objective of each prototype was to demonstrate confidence in
the CADE 2 approach by verifying system viability and performance and defining components
to serve as the foundation for development activities. The Treasury Inspector General for Tax
Administration (TIGTA) issued a report on the results of the prototypes on November 24, 2010.2



2
 Prototype Process Improvements Will Benefit Efforts to Modernize Taxpayer Account Administration (Reference
Number 2011-20-001, dated November 24, 2010).
                                                                                                      Page 2
                               The Customer Account Data Engine 2
                             Program Management Office Implemented
                        Systems Development Guidelines; However, Process
                       Improvements Are Needed to Address Inconsistencies


In addition, the TIGTA has recently completed audits covering the two CADE 2 systems
development projects—Daily Processing and Database Implementation.3
This review was requested by the Chief Technology Officer and was performed at the
Modernization and Information Technology Services organization facilities in New Carrollton,
Maryland, during the period April 2010 through May 2011. During audit fieldwork, the TIGTA
concurrently advised CADE 2 Program officials when issues were identified and suggested
corrective actions. The CADE 2 Program Management Office implemented several management
corrective actions during the course of the audit. The TIGTA communicated interim audit
results and recommendations for improvement to the Associate Chief Information Officer for
Modernization – Program Management Office on February 24, 2011, and April 14, 2011.
We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objective. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective. Detailed information on our audit
objective, scope, and methodology is presented in Appendix I. Major contributors to the report
are listed in Appendix II.




3
 The Customer Account Data Engine 2 Is Making Progress Toward Achieving Daily Processing, but Improvements
Are Warranted to Ensure Full Functionality (Reference Number 2011-20-109, dated September 28, 2011), and
The Customer Account Data Engine 2 Database Implementation Project Made Progress in Design Activities, but
Improvements Are Needed (Reference Number 2011-20-110, dated September 20, 2011).
                                                                                                   Page 3
                                  The Customer Account Data Engine 2
                                Program Management Office Implemented
                           Systems Development Guidelines; However, Process
                          Improvements Are Needed to Address Inconsistencies




                                      Results of Review

The Program Management Office Implemented Procedures to Manage
Systems Development Activities and Ensure Executive Oversight
The CADE 2 Program Management Office has taken initial steps to reduce the risks associated
with using new techniques and processes in the Modernization Program. The CADE 2 Program
is sponsored by the IRS Commissioner, Deputy Commissioners, Chief Technology Officer, and
Wage and Investment Division Commissioner. These sponsors have established organizational
commitments and a governance structure to assist in meeting CADE 2 Program goals.
Establishment of a governance structure is important to the success of the CADE 2 Program, as it
ensures high-level IRS officials oversee and approve critical aspects of systems development.
The CADE 2 Program Management Office ensured the Program Charter established a
governance model and procedures and that governance groups, including the Executive Steering
Committee and Governance Board, were fully engaged in these processes.
The Chief Technology Officer oversees the Executive Steering Committee, whose members
include the Chief Information Officer of the Department of the Treasury and the Commissioner
of the IRS Wage and Investment Division. This Committee provides oversight to ensure
alignment of the CADE 2 Program and the IRS Strategic Plan and approves decisions having
significant organizational or external impact, such as changes to Program goals or policy
requirements.
The Associate Chief Information Officer for Modernization – Program Management Office
oversees the Governance Board, whose members include the Business Modernization Executive
of the IRS Wage and Investment Division. The Board maintains the CADE 2 Program scope,
provides guidance, removes obstacles, and cultivates organizational commitment at all levels.
The CADE 2 Program Management Office developed the Program Framework to supplement the
Enterprise Life Cycle (ELC).4 The Program Framework establishes guidance for a single
Program Management Office to manage multiple, ongoing information technology systems
development projects by defining necessary life cycle phases, activities, and review points.
Adherence to Program Framework guidelines is monitored through key systems development
processes and recurring Program-level meetings.




4
    See Appendix V for an overview of the ELC.
                                                                                         Page 4
                             The Customer Account Data Engine 2
                           Program Management Office Implemented
                      Systems Development Guidelines; However, Process
                     Improvements Are Needed to Address Inconsistencies


Management oversight processes were established
The CADE 2 Program Management Office established oversight meetings and guidelines for key
systems development processes to ensure efficient and effective program management.
Specifically:
   •   Program-level oversight meetings: The CADE 2 Program Management Office
       established oversight processes which include quarterly and monthly briefings to the
       Chief Technology Officer and a series of weekly, biweekly, and monthly meetings
       between Program Management Office executives, staff, and project teams. Cybersecurity
       organization personnel participated in CADE 2 Program weekly meetings to provide
       early insight into the identification and development of required security controls.
       The Executive Steering Committee meets quarterly, while the Chief Technology Officer
       receives monthly status briefings. In addition, monthly meetings are held to discuss risks
       and issue management, and weekly meetings are held for a review over activities and
       progress on the Integrated Master Schedule (IMS). The CADE 2 Program Management
       Office established several integration reviews to ensure the Program was making
       appropriate progress across all activities within a transition state and moving in an
       integrated way towards the defined transition state solution. Appendix VII presents the
       integration reviews and their purposes.
   •   Guidelines for key systems development processes were issued: The CADE 2 Program
       Management Office issued guidelines to cover key processes. The CADE 2 Program’s
       core description document is presented in the Solution Architecture, which provides a
       solution that responds to the objectives and capabilities described in the CADE 2
       Program Charter. Guidelines were also issued for critical processes such as requirements
       management, risk and issue management, and configuration management.

Enhanced security controls are planned for the CADE 2 system
The CADE 2 Governance Board approved the Milestone 3 exit in December 2010. As part of
this exit process, the Program Management Office prepared two artifacts pertaining to security
controls for the CADE 2 system—the Security Strategy and the Security Framework. The
Security Framework provides a high-level view of security and sets the tone of the information
security solution throughout the Program. More detailed strategies will be presented in other
Program-level and project-level documents. The Security Strategy outlines the IRS’s plans for
applying resources to mitigate the security risks of developing, implementing, and operating the
CADE 2 system.
As previously mentioned, Transition State 1 includes two major changes: establishing a
relational database and moving to daily processing of the IMF. According to the Security
Framework document, since the IMF will not undergo any major changes to its architecture, the


                                                                                          Page 5
                                The Customer Account Data Engine 2
                              Program Management Office Implemented
                         Systems Development Guidelines; However, Process
                        Improvements Are Needed to Address Inconsistencies


security controls will largely remain as they currently exist. The Security Framework, however,
will apply to the new database system and its components.
Both the Security Strategy and Security Framework documents outline the IRS’s plans to
provide for enhanced security controls due to the sensitive nature of the taxpayer data stored in
the CADE 2 system. The IRS determined that the aggregation of taxpayer information,
numbering in excess of 130 million individual records, warrants an enhanced level of security
controls to help protect CADE 2 system data. The loss or theft of this data would significantly
damage taxpayers, as well as hurt the IRS’s reputation. To mitigate this risk, the IRS intends to
implement enhanced security controls. These controls exceed the minimum guidelines required
by the Recommended Security Controls for Federal Information Systems and Organizations
(National Institute of Standards and Technology Special Publication 800-53, Revision 3).
Further, the IRS will adopt a data-centric security approach whereby the focus will be on
assessing and mitigating the risk to the data stored on the system versus the risk to the system
itself.
The enhanced controls will be chosen using a risk-based approach. In other words, the cost of
implementing the control should not exceed the benefit derived from the control. The
Cybersecurity organization team identified 18 enhanced security controls that are being added
above and beyond the moderate baseline required by National Institute of Standards and
Technology.5 This enhanced set of requirements helps protect CADE 2 system data from
unauthorized access, modification, and corruption. Several of these enhanced security control
features will protect information from unauthorized use or access to IRS resources and applies
access restrictions to changes to the system, including upgrades and modifications that can
potentially have significant effects on the security of the system. We plan to evaluate the
adequacy of the security controls during a future audit of the CADE 2 system.

Independent government cost estimates were effectively used during contract
negotiations
In response to a TIGTA audit recommendation in May 2005, the IRS continues to obtain
independent Federal Government cost estimates to provide contracting officers with essential
knowledge needed to evaluate and negotiate contract proposals.6 During a subsequent review in
July 2007, the TIGTA reported an actual cost savings that resulted when the IRS obtained an
independent Federal Government cost estimate.7


5
  See Appendix VIII for a complete list of the 18 Customer Account Data Engine 2 High and Enhanced
Requirements.
6
  While Many Improvements Have Been Made, Continued Focus Is Needed to Improve Contract Negotiations
and Fully Realize the Potential of Performance-Based Contracting (Reference Number 2005-20-083, dated
May 26, 2005).
7
  While Improvements Continue in Contract Negotiation Methods and Management Practices, Inconsistencies
Need to Be Addressed (Reference Number 2007-20-123, dated July 27, 2007).
                                                                                                     Page 6
                               The Customer Account Data Engine 2
                             Program Management Office Implemented
                        Systems Development Guidelines; However, Process
                       Improvements Are Needed to Address Inconsistencies


During this current audit, we reviewed 6 of 19 CADE 2 Program contracts and determined that
all of the acquisition teams prepared an independent Federal Government cost estimate for Fiscal
Years 2010 and 2011. However, 2 of the 6 teams provided written documentation for a realized
cost savings of approximately $11.5 million as a result of obtaining independent estimates.8

Systems Development Processes and Program Guidelines Were Not
Always Consistent
The CADE 2 Program Management Office issued guidelines for key systems development
processes and convened numerous meetings to provide oversight for the work being performed.
As status meetings were convened, it became evident to CADE 2 Program Management Office
officials there was a significant challenge involved in assembling diverse processes into a
comprehensive set of activities that would be well understood and consistently applied across the
Program and the projects. While Program guidelines specified the systems development
procedures, the guidelines and the actual processes performed by the project teams were not
always consistent.
The CADE 2 Program Management Office needs to improve controls to ensure that systems
development guidelines and processes are consistently performed. The CADE 2 Program
Management Office stated that two factors contributed significantly to the inconsistent practices
identified. Specifically, the CADE 2 Program:
      (1) Introduced a new business model for the development of information technology projects
          within the Modernization and Information Technology Services organization. In
          summary, the CADE 2 Program represents the first instance a Program Management
          Office is responsible for providing directions and oversight to multiple, ongoing
          information technology development projects. As a result, the IRS issued revised
          guidelines for most of the systems development disciplines.
      (2) Created a new way to perform each systems development discipline. This essentially
          created a cultural change in the way the IRS traditionally developed information
          technology projects. One critical aspect has been to incorporate and ensure
          Program-level and project-level personnel understand new emerging roles and
          responsibilities; therefore, CADE 2 Program Management Office leadership stated that
          personnel will need time to mature into these revised roles and processes.
The CADE 2 Program Management Office needs to ensure consistent practices in risk
management, configuration management, test guidance, and the IMS.




8
    See Appendix IV.
                                                                                           Page 7
                              The Customer Account Data Engine 2
                            Program Management Office Implemented
                       Systems Development Guidelines; However, Process
                      Improvements Are Needed to Address Inconsistencies


Risks were not consistently identified and managed
The CADE 2 Program Management Office risk and issue management guidelines are designed to
establish a continuous process to identify and mitigate risks as early as possible. Procedures
require personnel at both the Program and project levels to identify and assess risks and to
control these risks in the Item Tracking Reporting and Control system. Although Program-level
risks were being identified and controlled in the system, project-level risks were not. For
example, the CADE 2 Program Item Tracking Reporting and Control Risk Log used during the
monthly risk and issue management meeting on January 6, 2011, contained 10 Program-level
risks and no project-level risks.
We judgmentally selected and reviewed 11 of 13 active risks contained on the CADE 2 Program
consolidated Risk Watch List dated February 8, 2011, to determine if risk analysis, risk
mitigation plans, and monitoring were performed for each risk. The CADE 2 Program
Management Office ensured risks were analyzed, mitigation plans were developed, and actions
were monitored for all 11 risks sampled. However, undocumented risks could adversely affect
the design activities, requirements development, systems performance, and delivery of the
CADE 2 system.
The CADE 2 Program Management Office did not ensure project teams were following the
established risk and issue management guidelines. The CADE 2 Director for Program
Management and Control acknowledged inconsistencies in risk management practices, stating
that there are formal risk tracking procedures at the Program level, but not at the project level.
As a result, the Director explained that revisions to the risk management process would include:
   •   Making the process more transparent. Risks identified would no longer be designated as
       either a Program-level risk or a project-level risk.
   •   Implementing a common process. In the revised process, each risk would be subject to
       the same Program-level evaluation and review process.
   •   Developing a consolidated list of risks. The list would capture all identified risks and be
       monitored at monthly risk management meetings. After Program-level evaluation,
       validated risks will be entered into the Item Tracking Reporting and Control system.
Management Action: The CADE 2 Program Management Office revised both the CADE 2
Risk and Issue Management Process and Risk and Issue Management Plan. In addition, the Risk
Watch List was completed following our discussion with management regarding the inconsistent
tracking of risks. This list captures all risks and is discussed at the monthly risk and issue
management meetings. We reviewed a copy of this list after it was developed, as discussed
above.




                                                                                            Page 8
                              The Customer Account Data Engine 2
                            Program Management Office Implemented
                       Systems Development Guidelines; However, Process
                      Improvements Are Needed to Address Inconsistencies


Configuration management and requirements management guidelines were not
aligned with the change management process
The Configuration Management Plan and Requirements Management Plan were not aligned to
establish the overall proper Configuration Control Board (CCB) authority. Configuration
management involves establishing proper control over approved project products such as
documentation, hardware, and software and assuring their changes are authorized, controlled,
and tracked. Ensuring proper control over project products involves establishing baselines,
which are an agreed-upon description of the attributes or characteristics of a product at a point in
time. All baseline products are under configuration control to formally protect them from
unwarranted and uncontrolled changes. These baseline products serve as the basis for future
development and can be changed only when authorized by the CCB. According to the CADE 2
Configuration Management Plan, proposed changes to baseline products should be documented
using a change request form, and no changes are made to the products until the changes are
approved by the CCB.
The CADE 2 Program Management Office ensured that changes to baseline products were
documented on change request forms. However, the Configuration Management Plan and
Requirements Management Plan were not aligned with the change management process. Both
guidelines stated there were three CCBs, one for the CADE 2 Program and two for the CADE 2
projects. The CADE 2 Program Management Office Director for Delivery Management stated
that only one CCB existed to approve changes to CADE 2 products.
Initially, the CADE 2 Program Management Office believed change requests needed to be
addressed at both the Program and project levels separately, but it realized this added an
unnecessary extra level of work and decided to use only one CCB for approving changes to
baseline products at both Program and project levels. However, the CADE Program
Management Office did not ensure the Configuration Management Plan or Requirements
Management Plan were timely updated to reflect this new process. When guidelines do not align
with the actual processes, unauthorized changes could occur, which may adversely affect the
system and delay implementation of the CADE 2 system in January 2012.
Management Action: The CADE 2 Program Management Office revised the Configuration
Management Plan and the Requirements Management Plan to reflect that one CCB maintains
sole change approval authority for all baseline products developed for the CADE 2 system.

The CADE 2 Program Test Plan was not initially developed to provide needed
guidance for testing activities
The CADE 2 Program Management Office did not initially have a Program Test Plan and, as a
result, experienced multiple delays in developing the Program Test Plan. The CADE 2 Program
Management Office, in partnership with the Enterprise Systems Testing office, plans and
executes the testing activities required to verify and validate the overall CADE 2 Transition
State 1 solution. The CADE 2 Program Test Strategy requires the development of the CADE 2
                                                                                             Page 9
                             The Customer Account Data Engine 2
                           Program Management Office Implemented
                      Systems Development Guidelines; However, Process
                     Improvements Are Needed to Address Inconsistencies


Program Test Plan and states that the Plan will describe the next level of detail for testing the
system. This testing will include descriptions of the common elements among the testing
projects and will specify CADE 2 project test plans. The CADE 2 Program Management Office
staff held discussions to consider whether the Program Test Strategy was sufficient to replace the
Program Test Plan. Although the Strategy requires detailed testing guidance be provided in a
test plan, it focuses on the Program level and does not provide detailed test procedures or
information about testing at the project level. The lack of a documented Program Test Plan
occurred partially because the Enterprise Systems Testing office had never created a Program
Test Plan prior to the CADE 2 Program. Additionally, since this Program Test Plan is new, the
Internal Revenue Manual had not yet been updated to include detailed instructions for
developing a Program-level test plan. We advised the CADE 2 Director for Delivery
Management that the Program Test Plan was a valuable control the project teams need for
development of their detailed project test plans. If the CADE 2 project teams do not receive
sufficient guidance on developing their test plans, the CADE 2 system may not be properly
tested and the system may not work as intended when deployed into IRS operations.
Management Action: The CADE 2 Program Management Office developed the Program
Test Plan, which includes due dates for delivery of each project test plan.

Recommendations
The Chief Technology Officer should:
Recommendation 1: Ensure that each project test plan is developed timely to allow sufficient
time for preparation of testing materials.
       Management’s Response: The IRS agreed with this recommendation. The IRS
       stated that test plans supporting the CADE 2 and affected systems are prepared in
       accordance with applicable Internal Revenue Manual guidance, which states when test
       plans must be prepared and delivered. Specifically, Internal Revenue Manual 2.6.1.4.2.9
       states that project-level Systems Acceptability Test Plans must be delivered to all
       stakeholders at least 14 calendar days before application program delivery. While the
       Internal Revenue Manual does not provide explicit guidance for Final Integration Test
       Plan delivery, the same 14-day delivery requirement is maintained. For test types that are
       not covered by the Internal Revenue Manual or equivalent established guidance, the
       timing of Test Plan delivery is determined during Program or project planning.
Recommendation 2: Ensure that Internal Revenue Manual 2.16.1, Enterprise Life Cycle
Guidance, includes detailed instructions on how to develop a Program-level test plan.
       Management’s Response: The IRS disagreed with this recommendation. The IRS
       stated that the ELC is for project development and is not intended to provide for detailed
       instructions on developing a Program-level test plan. The CADE 2 Program

                                                                                          Page 10
                             The Customer Account Data Engine 2
                           Program Management Office Implemented
                      Systems Development Guidelines; However, Process
                     Improvements Are Needed to Address Inconsistencies


       Management Office will reconcile the System Validation & Verification Plan and the
       System Test Plan, which are generally consistent in purpose, scope, and timing as the
       CADE 2 Program Test Strategy and Program Test Plan, respectively, and maintain
       Program-level guidance regarding their development and usage. In the interim, the
       existing Transition State 1 Program Test Plan will be used as a template.
       Office of Audit Comment: In the memorandum transmitting IRS management’s
       response to the draft report, the Chief Technology Officer stated that the finding that the
       Program Test Plan was delivered late appears to be inaccurate. The Chief Technology
       Officer provided a chronology of activities undertaken to prepare the Program Test Plan,
       and stated that a decision was made by Enterprise Systems Testing management, and
       agreed to by the CADE 2 Program Management Office, to defer delivery of the Program
       Test Plan to allow time to incorporate additional design information as it was being
       developed. The Chief Technology Officer ends by saying uncertainty or unfamiliarity
       with the content or structure of the Program Test Plan did not impede development by the
       Enterprise Systems Testing office and was not a factor in the decision to defer delivery.
       However, during the TIGTA’s audit fieldwork, the CADE 2 Program Management
       Office staff advised they were considering not completing the Program Test Plan, and
       only did so after we brought this to the attention of the CADE 2 Director for Delivery
       Management. Although the IRS disagreed with our recommendation, management
       offered an alternative corrective action. We agree this alternative approach addresses the
       condition.

The Integrated Master Schedule did not include all the activities required by
established guidelines
The CADE 2 Program Management Office did not ensure a comprehensive master schedule was
developed in accordance with established guidelines. The IMS is designed to capture and
maintain tasks, milestones, activities, and dependencies over the course of a program or project
lifecycle. The CADE 2 Integrated Schedule Management Process, dated May 26, 2010, defines
the approach to developing and maintaining the IMS. Specifically, the Program Management
Office is responsible for preparing the IMS, and project teams are responsible for preparing,
maintaining, and updating supporting schedules. Currently, the IMS and supporting schedules
are managed and maintained on a SharePoint web site. The CADE 2 IMS was not complete, as
it did not include significant activities for several milestones. For example, the IMS did not
include the CADE 2 Milestone 4b exit date or Milestone 5 deployment date of January 2012.
Additionally, participants in several weekly CADE 2 Program meetings were unsure whether
they had the most current version of the IMS due to missing activities/tasks.
The CADE 2 Director for Delivery Management stated that the IMS process was new for the
CADE 2 Program; therefore, it would take time for stakeholders to use this new process. The
critical path is designed to sequence IMS activities for timely completion; however, without a
comprehensive IMS, the critical path could be inaccurate. A complete and integrated IMS is
                                                                                          Page 11
                             The Customer Account Data Engine 2
                           Program Management Office Implemented
                      Systems Development Guidelines; However, Process
                     Improvements Are Needed to Address Inconsistencies


necessary at all times to ensure stakeholders are aware of significant systems development
activities and to assure the January 2012 CADE 2 system scheduled deployment date is not
delayed.

Recommendation
The Chief Technology Officer should:
Recommendation 3: Ensure the IMS includes all key activities associated with the
development and deployment of the CADE 2 system, including the Daily Processing and
Database Implementation Projects.
       Management’s Response: The IRS agreed with this recommendation. The CADE 2
       Program Management Office engaged all delivery partners in the rebaseline of the
       Milestone 4b IMS. This included conducting multiple cross-functional work sessions
       with stakeholders to ensure all key activities were included and to identify dependencies
       and alignment of dates.

Requirements Management Processes Were Not Performed in
Accordance With Established Guidelines
Requirements are used to define specific business and technical functionalities that are needed
from a system. The CADE 2 Requirements Management Plan is the primary source for
information on activities, responsibilities, and resources used to manage, monitor, and control
requirements of the CADE 2 system. The Requirements Management Plan identifies
requirements traceability as a key component of requirements management. It also requires that
the CADE 2 Program Management Office report monthly on requirements management
measures and metrics. This reporting includes measures such as requirements traceability and
metrics that identify requirements changes and the number of untraced requirements.
The Rational RequisitePro (ReqPro) automated tool is the IRS Enterprise Architecture standard
for requirements management. All CADE 2 Program, project, and stakeholder personnel should
use ReqPro to create, manage, and control requirements and to maintain traceability across the
Program and projects. ReqPro can generate a Requirements Traceability Matrix to record and
track requirements.
All CADE 2 system requirements were not sufficiently traced prior to the Milestone 3 exit.
Additionally, the ELC required business rules be gathered and completed during Milestone 3;
however, they were still being developed after the December 2010 Milestone 3 exit. Factors
contributing to the untraced requirements include:
   •   Business rules were not timely completed – The CADE 2 Program Management Office
       did not ensure business rules were gathered from all sources and input into ReqPro prior

                                                                                        Page 12
                             The Customer Account Data Engine 2
                           Program Management Office Implemented
                      Systems Development Guidelines; However, Process
                     Improvements Are Needed to Address Inconsistencies


       to the Milestone 3 exit. For example, when the Milestone 3 exit occurred, the business
       rule that determines eligibility of accounts for daily processing was not developed. This
       issue can affect any number of individual taxpayer accounts, consequently impinging
       upon CADE 2 system performance. The January 2011 ReqPro traceability matrix
       contained approximately 3,664 (93 percent) of 3,944 customer requirements not traced to
       business rule sets and 8 (9 percent) of 89 business rule sets not traced to customer
       requirements. Without business rules, these customer requirements may not effectively
       function. Additionally, new business rules developed after the Milestone exit could also
       require development of additional customer requirements.
       The CADE 2 Director for Delivery Management stated that adherence to the ELC
       Program Framework resulted in business rules not being fully developed by the
       Milestone 3 exit. Specifically, the Framework combined both Milestones 3 and 4a into
       an April 2011 exit, resulting in all activities being structured around that one exit.
       However, due to budget issues, Milestone 3 was subsequently separated into an exit time
       period of December 2010. Although the CADE 2 Program Management Office ensured
       key activities and products were identified, business rules were not completed prior to the
       new Milestone 3 exit. The risk of incomplete business rules could contribute to untraced
       requirements, which may adversely impact systems design and testing activities.
   •   Requirements management processes were not followed – Historically, IRS offices
       managed requirements internally through Excel spreadsheets and automated requirements
       tools. With the onset of ReqPro, the CADE 2 Program Management Office implemented
       processes and provided instructions to IRS stakeholders for accurate requirements input
       into this management tool. However, the CADE 2 Director for Delivery Management
       stated that these new processes, roles, and responsibilities presented a cultural change for
       personnel and that some stakeholders were struggling with this adjustment.
       For example, after requirements were baselined in ReqPro, Cybersecurity organization
       and Enterprise Operations personnel continued to develop requirements outside of
       ReqPro. Primarily, the Cybersecurity organization extracted requirements from ReqPro
       into an Excel spreadsheet, where they were managed and imported back into ReqPro.
       Use of this method created a situation where security requirements were very unstable.
       As a result, 1,137 security requirement discrepancies were created. Additionally, security
       requirements previously approved in ReqPro prior to their extraction resurfaced as not
       being approved when they were imported back into the system. During our review, these
       discrepancies were still being addressed by the Cybersecurity organization.
The risk of incomplete, missing, or invalid requirements could adversely affect CADE 2 system
design and testing activities and could delay the scheduled January 2012 system deployment.
We plan to review the stability and traceability of all requirements, including security
requirements, during our CADE 2 system testing audit.


                                                                                           Page 13
                             The Customer Account Data Engine 2
                           Program Management Office Implemented
                      Systems Development Guidelines; However, Process
                     Improvements Are Needed to Address Inconsistencies


Recommendations
The Chief Technology Officer should:
Recommendation 4: Ensure all requirements and business rules are identified and
sufficiently traced, controlled, and managed in ReqPro prior to initiating any CADE 2 system
testing processes to ensure the system functions as designed when deployed into IRS operations.
This should include the Daily Processing and Database Implementation Projects.
       Management’s Response: The IRS agreed with this recommendation. The IRS
       stated it has already stood up the CADE 2 Program ReqPro repository, which contains
       requirements and business rules for the Daily Processing and Database Implementation
       Projects, in November 2010. All requirements are tracked vertically down the hierarchy,
       and horizontally to other disciplines such as Configuration Management and Design,
       through reference requirements. All infrastructure requirements are housed in the
       Infrastructure Architecture & Engineering logical CADE 2 ReqPro repository, which also
       includes requirements for the Database Implementation and Daily Processing Projects.
       These requirements are traced to the CADE 2 Program ReqPro repository through
       cross-project traceability.
       The CADE 2 Program Management Office also drafted a Program Requirements
       Management Plan, which outlined the processes for managing requirements and tracing
       requirements. They also conducted a Program Integrated Requirements Review in
       December 2010 to ensure that all requirements were traced and complete in the CADE 2
       Program ReqPro repository, including ensuring there was cross-project traceability
       between the Infrastructure Architecture & Engineering repository and the CADE 2
       Program ReqPro repository. The CADE 2 Program Management Office also regularly
       monitors the data in the repository and presents metrics, such as requirements counts,
       requirements completeness, and untraced requirements, to delivery partners during
       weekly Integrated Requirements Team meetings. For any requirements that are not
       traced, an action is given to the project to establish the trace.
Recommendation 5: Implement controls to ensure that CADE 2 Program stakeholders:
   a. Cannot remove and work on requirements outside of ReqPro.
   b. Use ReqPro to create, input, and control requirements.
       Management’s Response: The IRS agreed with this recommendation. Since
       implementation of the CADE 2 Requirements repository, Requirements and Demand
       Management requirements analysts have begun working directly in ReqPro, using
       ReqPro to input and control requirements. However, prior to baselining the requirements
       and establishing configuration control, it was essential that the IRS have a tool to assist
       with creating the requirements. The Requirements and Demand Management provides

                                                                                          Page 14
                     The Customer Account Data Engine 2
                   Program Management Office Implemented
              Systems Development Guidelines; However, Process
             Improvements Are Needed to Address Inconsistencies


business-friendly tools (compatible with ReqPro) which enable creation of requirements
that can be imported into ReqPro. Requirements imported into ReqPro are considered
baselined and under configuration management control. All changes to requirements are
performed using change requests, and the program requirements team ensures that the
requirements are input and controlled within ReqPro by using the change requests
tracking spreadsheet. The change request tracking spreadsheet records the actions taken
to create or update a requirement based on a change request. Requirements can be
exported from ReqPro for reporting purposes only and are not manipulated.
Requirements analysts have also been trained on working within ReqPro, and a monthly
User Group meeting is held to train users on advanced topics on the use of ReqPro.




                                                                                Page 15
                                   The Customer Account Data Engine 2
                                 Program Management Office Implemented
                            Systems Development Guidelines; However, Process
                           Improvements Are Needed to Address Inconsistencies


                                                                                     Appendix I

            Detailed Objective, Scope, and Methodology

The overall objective of this review was to determine if the CADE1 2 Program Management
Office planned and provided oversight for Transition State 1 design activities in accordance with
systems development guidelines, including applicable security provisions.
To accomplish the overall objective, we:
I.         Determined whether the CADE 2 Program Management Office provided effective
           oversight and directions for Transition State 1 design activities of both the Program and
           project activities. As appropriate, we conducted interviews of IRS personnel, attended
           Program meetings, requested documentation of processes and procedures, and performed
           analysis.
           A. Identified key personnel, including CADE 2 Program executives, directors, and
              managers, through review of the organization chart and attending meetings.
           B. Obtained documentation explaining the roles and responsibilities of key CADE 2
              Program personnel.
           C. Determined the processes and procedures used by the CADE 2 Program Management
              Office to manage Program and project activities, including providing formal
              directions and oversight and monitoring progress, problems, and corrections.
               1. Documented Program-level procedures and meeting requirements.
               2. Documented formal guidance issued or communicated to project staffs by the
                  CADE 2 Program Management Office.
           D. Verified that a governance process was established and that guidance was issued for
              the CADE 2 Program Management Office and project staffs to follow in fulfilling
              governance activities and making decisions affecting the CADE 2 Program.
               1. Identified the members and names of governance bodies.
               2. Reviewed governance guidance that communicated the procedures and processes
                  used by Program and project personnel to make decisions and elevate project
                  changes, risks, and issues from the project level to the Program level.




1
    See Appendix IX for a glossary of terms.
                                                                                            Page 16
                                  The Customer Account Data Engine 2
                                Program Management Office Implemented
                           Systems Development Guidelines; However, Process
                          Improvements Are Needed to Address Inconsistencies


II.        Determined whether the CADE 2 Program Management Office established key Program
           areas and processes in accordance with systems development guidelines. As appropriate,
           we conducted interviews of IRS personnel, attended Program/project meetings, requested
           documentation of processes and procedures, and performed analysis in the following key
           Program areas.
           A. Reviewed the IMS to determine whether it included key project activities.
           B. Reviewed the Program Charter and the Program Management Plan.
           C. Obtained risk and issue management documentation.
               1. Reviewed the Risk and Issue Management Plan, the Risk and Issue Management
                  Process document, and Risks Logs.
               2. Judgmentally selected and reviewed 11 of 13 active risks contained on the
                  CADE 2 consolidated Risk Watch List dated February 8, 2011, to determine if
                  risk analysis, risk mitigation plans, and monitoring were performed for each risk.
                  We used a judgmental sample because we were not planning to project our
                  results.
           D. Obtained the requirements management documentation.
               1. Reviewed the Requirements Management Plan, the Solution Architecture, and the
                  Program Roadmap.
               2. Reviewed and analyzed the Milestone 32 baseline Requirements Traceability
                  Matrix from the Rational RequistePro application.
           E. Obtained and reviewed the Configuration Management Plan, the Change Request
              Log, and change requests.
           F. Reviewed Program testing documentation to ascertain if the CADE 2 Program
              Management Office provided sufficient guidance for project teams to prepare detailed
              test plans.
III.       Identified and reviewed security guidelines and requirements applicable to the CADE 2
           Program Management Office, including the supporting projects. As appropriate, we
           conducted interviews of IRS personnel (including those in Cybersecurity organization),
           attended Program meetings, requested documentation of processes and procedures, and
           performed analysis.
           A. Identified key IRS personnel and their roles and responsibilities in designing security
              features for the CADE 2 system by reviewing organization charts and other CADE 2
              system security documents.

2
    See Appendix V for an overview of the ELC.
                                                                                              Page 17
                             The Customer Account Data Engine 2
                           Program Management Office Implemented
                      Systems Development Guidelines; However, Process
                     Improvements Are Needed to Address Inconsistencies


       B. Reviewed the security and privacy guidelines applicable to the CADE 2 system.
       C. Identified and reviewed security requirements in the following CADE 2 Program
          documentation: the Security Framework, Security Strategy, Program Roadmap,
          Solution Architecture, and security requirements for supporting projects in the
          Business Systems Report and Business Systems Requirements Report.
       D. Determined whether the security controls were included in CADE 2 system
          documentation early enough in the systems development life cycle to be cost
          effective.
       E. Determined whether the security categorization the IRS assigned to the CADE 2
          system was documented and supported.
IV.    Reviewed the CADE 2 Program contracts applicable to both the Program and the projects
       to determine if the IRS sufficiently protected itself throughout the contracting process.
       As appropriate, we conducted interviews of IRS personnel, requested documentation of
       the contracts and procedures, and performed analysis.
       A. Obtained all existing contracts and task orders for the CADE 2 Program and the
          supporting projects.
       B. Reviewed a judgmental sample of 6 of 19 contracts (issued in Fiscal Years 2010 and
          2011) and determined whether the IRS obtained independent Government cost
          estimates to ensure the contract costs were economically derived. We used a
          judgmental sample because we were not planning to project our results.
       C. Based on evidence received from the Office of Procurement, developed a cost savings
          outcome measure related to the use of independent Government cost estimates.
Internal controls methodology
Internal controls relate to management’s plans, methods, and procedures used to meet their
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance. We determined the following
internal controls were relevant to our audit objective: ELC and related IRS guidelines and the
processes followed in the development of information technology projects. We evaluated these
controls by conducting interviews and meetings with management and staff, attending meetings
of the CADE 2 Program and project teams, and reviewing Program documentation such as the
Program Charter, various program plans, and other documents that provided evidence of whether
ELC systems development processes were followed.




                                                                                        Page 18
                            The Customer Account Data Engine 2
                          Program Management Office Implemented
                     Systems Development Guidelines; However, Process
                    Improvements Are Needed to Address Inconsistencies


                                                                              Appendix II

                 Major Contributors to This Report

Alan R. Duncan, Assistant Inspector General for Audit (Security and Information Technology
Services)
Diana M. Tengesdal, Acting Director
Kimberly R. Parmley, Audit Manager
Wallace C. Sims, Lead Auditor
Suzanne M. Westcott, Senior Auditor
Esther M. Wilson, Senior Auditor
David F. Allen, Program Analyst




                                                                                     Page 19
                            The Customer Account Data Engine 2
                          Program Management Office Implemented
                     Systems Development Guidelines; However, Process
                    Improvements Are Needed to Address Inconsistencies


                                                                           Appendix III

                         Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Operations Support OS
Deputy Commissioner for Services and Enforcement SE
Chief, Agency-Wide Shared Services OS:A
Commissioner, Wage and Investment Division SE:W
Deputy Chief Information Officer for Strategy/Modernization OS:CTO
Associate Chief Information Officer, Modernization – Program Management Office
OS:CTO:MP
Chief Counsel CC
National Taxpayer Advocate TA
Director, Procurement OS:A:P
Director, Risk Management Division OS:CTO:SP:RM
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaisons:
       Commissioner, Wage and Investment Division SE:W:S:PRA:PEI
       Director, Procurement OS:A:P
       Director, Program Oversight OS:CTO:SP:RM




                                                                                 Page 20
                                The Customer Account Data Engine 2
                              Program Management Office Implemented
                         Systems Development Guidelines; However, Process
                        Improvements Are Needed to Address Inconsistencies


                                                                                          Appendix IV

                                   Outcome Measure

This appendix presents detailed information on the measurable impact a prior recommendation
has had on tax administration. This benefit will be incorporated into our Semiannual Report to
Congress.

Type and Value of Outcome Measure:
•   Cost Savings – Funds Put to Better Use – Actual: $11,537,356 (see page 4).

Methodology Used to Measure the Reported Benefit:
The Federal Acquisition Regulation requires the initial negotiation position to be based on the
results of the contracting officer’s analysis of the offeror’s proposal, taking into consideration
technical analysis, fact-finding results, and independent Federal Government cost estimates.1 In
a May 2005 audit report,2 the TIGTA determined that the IRS may not have been obtaining
requested services at a fair and reasonable cost because independent cost estimates were not
required by modernization processes. It was recommended that the IRS promote consistent
application of best practices by obtaining independent cost estimates. Additionally, in a
July 2007 audit report,3 the TIGTA reported an actual cost savings outcome measure resulting
from the IRS obtaining an independent Government cost estimate.
As part of our current review, the IRS Office of Procurement provided written documentation
that it realized a cost savings of $11,537,356 from obtaining independent estimates from 2 of its
contracts. The cost savings originated from reductions in the scope for base and option years,
labor hours, and labor rates and a revision to the skill mix.4




1
  48 C.F.R. § 15.406-1 (a) (Amended February 2009).
2
  While Many Improvements Have Been Made, Continued Focus Is Needed to Improve Contract Negotiations and
Fully Realize the Potential of Performance-Based Contracting (Reference Number 2005-20-083, dated
May 26, 2005).
3
  While Improvements Continue in Contract Negotiation Methods and Management Practices, Inconsistencies Need
to Be Addressed (Reference Number 2007-20-123, dated July 27, 2007).
4
  Information obtained from the IRS Office of Procurement. The TIGTA did not verify the accuracy of this
information.
                                                                                                    Page 21
                                  The Customer Account Data Engine 2
                                Program Management Office Implemented
                           Systems Development Guidelines; However, Process
                          Improvements Are Needed to Address Inconsistencies


                                                                                                 Appendix V

                         Enterprise Life Cycle Overview

 The ELC is the IRS’s standard approach to business change and information systems initiatives.
 It is a collection of program and project management best practices designed to manage business
 change in a successful and repeatable manner. The ELC addresses large and small projects
 developed internally and by contractors.
 The ELC includes such requirements as:
     •    Development of and conformance to enterprise architecture.
     •    Improving business processes prior to automation.
     •    Use of prototyping and commercial software, where possible.
     •    Obtaining early benefit by implementing solutions in multiple releases.
     •    Financial justification, budgeting, and reporting of project status.
 In addition, the ELC improves the IRS’s ability to manage changes to the enterprise; estimate the
 cost of changes; and engineer, develop, and maintain systems effectively. Figure 1 provides an
 overview of the phases and milestones within the ELC. A phase is a broad segment of work
 encompassing activities of similar scope, nature, and detail and providing a natural breakpoint in
 the life cycle. Each phase begins with a kickoff meeting and ends with an executive
 management decision point (milestone) at which IRS executives make “go/no-go” decisions for
 continuation of a project. Project funding decisions are often associated with milestones.
                    Figure 1: Enterprise Life Cycle Phases and Milestones

                Phase                                  General Nature of Work                          Milestone
 Vision and Strategy/                  High-level direction setting. This is the only phase for
                                                                                                           0
 Enterprise Architecture Phase         enterprise planning projects.
 Project Initiation Phase              Startup of development projects.                                    1
                                       Specification of the operating concept, requirements, and
 Domain Architecture Phase                                                                                 2
                                       structure of the solution.
 Preliminary Design Phase              Preliminary design of all solution components.                      3
 Detailed Design Phase                 Detailed design of solution components.                            4A
 Systems Development Phase             Coding, integration, testing, and certification of solutions.      4B
                                       Expanding availability of the solution to all target users.
 System Deployment Phase                                                                                   5
                                       This is usually the last phase for development projects.
                                                                                                        System
 Operations and Maintenance Phase      Ongoing management of operational systems.
                                                                                                       Retirement
Source: The Enterprise Life Cycle Guide.

                                                                                                         Page 22
                                   The Customer Account Data Engine 2
                                 Program Management Office Implemented
                            Systems Development Guidelines; However, Process
                           Improvements Are Needed to Address Inconsistencies


                                                                                           Appendix VI

     Customer Account Data Engine 2 Transition States

Figures 1 through 4 present conceptual models of the As Is, Transition States 1 and 2, and
Target State processing flows for individual income tax accounts.
                                        Figure 1: As Is Processing




    Note: R2 CPE = Return to Current Processing Environment.1
    Source: Customer Account Data Engine 2 Program 4th Quarter Briefing to the TIGTA, dated December 15, 2009.




1
    See Appendix IX for a glossary of terms.
                                                                                                     Page 23
                             The Customer Account Data Engine 2
                           Program Management Office Implemented
                      Systems Development Guidelines; However, Process
                     Improvements Are Needed to Address Inconsistencies


                      Figure 2: Transition State 1 Processing Plan




Note: CFOL = Corporate Files On-line.
Source: Customer Account Data Engine 2 Program 4th Quarter Briefing to the TIGTA, dated December 15, 2009.




                                                                                                 Page 24
                       The Customer Account Data Engine 2
                     Program Management Office Implemented
                Systems Development Guidelines; However, Process
               Improvements Are Needed to Address Inconsistencies


                Figure 3: Transition State 2 Processing Plan


  Transition State 2
  Single System - Customer Account Data Engine (daily)
  Addresses Financial Material Weaknesses
  Applications structured to use database
  Downstream systems start to leverage database

                                          Customer
                   Input                  Account
                Transactions                Data
                                           Engine




                                                                        Downstream
                                                                         Systems
                                         Target Database
                                         Fully Populated




                                                 Integrated Production Model

Source: Customer Account Data Engine 2 Program 4th Quarter Briefing to the TIGTA, dated
December 15, 2009.




                                                                                          Page 25
                        The Customer Account Data Engine 2
                      Program Management Office Implemented
                 Systems Development Guidelines; However, Process
                Improvements Are Needed to Address Inconsistencies


                    Figure 4: Target State Processing Plan




Source: Customer Account Data Engine 2 Program 4th Quarter Briefing to the TIGTA,
dated December 15, 2009.




                                                                                    Page 26
                                  The Customer Account Data Engine 2
                                Program Management Office Implemented
                           Systems Development Guidelines; However, Process
                          Improvements Are Needed to Address Inconsistencies


                                                                                            Appendix VII

                 Transition State 1 Integration Reviews

      Integration Review             Outcomes


                                     The Integrated Management Planning Review validates that relationships
   Integrated Management
                                     and integration expectations between the Program and its projects are
       Planning Review
                                     appropriately defined and well understood.


                                     The Integrated Requirements Review validates that the Program-level
                                     requirements allocated to projects are in alignment with the Program
          Integrated
                                     solution; that Program-level requirements have been appropriately
     Requirements Review
                                     fulfilled through decomposition to project-level requirements; and that
                                     all requirements dependencies are identified, supported, and fulfilled.


                                     The Integrated Solution Planning Review validates that Program
      Integrated Solution
                                     strategies for solution design are aligned for the transition state solution.
       Planning Review


                                     The Integrated Logical Design Review validates that the project-level
       Integrated Logical            designs support the solution’s logical implementation as defined in the
         Design Review               Program Roadmap and that the projects collectively will deliver an
                                     integrated and cohesive solution.


                                     The Integrated Physical Design Review validates that the project-level
      Integrated Physical            designs support the solution’s physical implementation as defined in the
        Design Review                Program Roadmap and that the projects collectively will deliver an
                                     integrated and cohesive solution.

Source: IRS Customer Account Data Engine 2, 2nd Quarter Briefing to the TIGTA, dated July 14, 2010.




                                                                                                      Page 27
                                  The Customer Account Data Engine 2
                                Program Management Office Implemented
                           Systems Development Guidelines; However, Process
                          Improvements Are Needed to Address Inconsistencies



     Integration Review            Outcomes


                                   The Integrated Test Planning Review validates that Program and
      Integrated Test              project plans for testing the solution components individually and
      Planning Review              the integrated Program solutions collectively are in alignment and
                                   comprehensive.


                                   The Integrated Test Readiness Review validates that solution
      Integrated Test              components have been accurately and comprehensively tested at
     Readiness Review              the Unit and Developer level and that the Program is ready to begin
                                   testing of the integrated Transition State solution.


                                   The Integrated Organizational Readiness Review validates that the
        Integrated
                                   Program understands the impact the solution has on the business
      Organizational
                                   and validates the organization’s readiness to adopt the new
     Readiness Review
                                   solution.


                                   The Integration Deployment Readiness Review validates that the
                                   solution components; production environment; and plans for
  Integrated Deployment            deployment, back-out, and operations are assessed against defined
     Readiness Review              readiness criteria. The Program will make a “Go/No-Go” decision
                                   based on the results of the Integrated Deployment Readiness
                                   Review.

Source: IRS Customer Account Data Engine 2, 2nd Quarter Briefing to the TIGTA, dated July 14, 2010.




                                                                                                      Page 28
                       The Customer Account Data Engine 2
                     Program Management Office Implemented
                Systems Development Guidelines; However, Process
               Improvements Are Needed to Address Inconsistencies


                                                                            Appendix VIII

            The Customer Account Data Engine 2
             High and Enhanced Requirements

High and
Enhanced
 Security     NIST 800-53
 Control        Security
 Number       Control Name     Requirement Description              Requirement Purpose
                               The information system shall         Monitoring changes outside
                Account
    1                          monitor for atypical (abnormal)      approved maintenance
               Management
                               use of systems accounts.             windows.
                                                                    Simplifies account
                                                                    management to allow
                               The information system shall         effective enforcement of
                Account
    2                          establish a role-based user          least privilege principles
               Management
                               account management process.          (i.e., the minimum
                                                                    privileges needed to
                                                                    perform job functions).
                                                                    Existing Internal Revenue
                               The information system shall
                Account                                             Manual requirements must
    3                          monitor and track privilege
               Management                                           be in place for all IRS
                               role(s) assignments.
                                                                    systems.
                               The information system shall         Selected to document
                 Access
    4                          store encrypted backups in a         control enhancement that is
               Enforcement
                               secure location.                     already in place.
                               The information system shall
              Previous Logon                                        Allows detection of
                               notify the user, upon successful
    5            (Access)                                           unauthorized account
                               logon (access), of the date and
                Notification                                        access.
                               time of the last logon (access).
                               The information system shall
                               notify the user, upon successful
              Previous Logon                                        Allows detection of
                               logon/access, of the number of
    6            (Access)                                           unauthorized account
                               unsuccessful logon/access
                Notification                                        access.
                               attempts since the last successful
                               logon/access.

                                                                                        Page 29
                      The Customer Account Data Engine 2
                    Program Management Office Implemented
               Systems Development Guidelines; However, Process
              Improvements Are Needed to Address Inconsistencies



High and
Enhanced
 Security   NIST 800-53
 Control      Security
 Number     Control Name       Requirement Description               Requirement Purpose
                               The information system shall          Intended to prevent loss of
                               provide a warning when allocated      audit capabilities due to
              Response to
                               audit record storage volume           storage capacity being
    7       Audit Processing
                               reaches a defined percentage of       exceeded either
               Failures
                               maximum audit record storage          unintentionally or
                               capacity.                             maliciously.
                               The information system shall          Real-time alerts of
              Response to      provide a real-time alert for         unauthorized access are
    8       Audit Processing   intrusions and potential intrusions   necessary to minimize
               Failures        to IRS networks by unauthorized       damage from an attacker
                               individuals.                          or malicious user.
                                                                     Real-time alerts of
                               The information system shall
              Response to                                            unauthorized access are
                               provide a real-time alert for
    9       Audit Processing                                         necessary to minimize
                               unauthorized use or access to IRS
               Failures                                              damage from an attacker
                               resources.
                                                                     or malicious user.
                               The information system shall
             Protection of     back up audit records at a defined
                                                                     Intended to reduce the risk
   10          Account         frequency onto a different system
                                                                     of audit compromise.
             Information       or media than the system being
                               audited.
                               The information system shall
             Protection of                                           Intended to prohibit
                               authorize access to management
   11          Account                                               modification of audit
                               of audit functionality to only a
             Information                                             records by privileged users.
                               limited subset of privileged users.
                               The information system shall
             Protection of     protect the audit records of          Intended to prohibit
   12          Account         nonlocal accesses to privileged       modification of audit
             Information       accounts and the execution of         records by privileged users.
                               privileged functions.




                                                                                         Page 30
                                  The Customer Account Data Engine 2
                                Program Management Office Implemented
                           Systems Development Guidelines; However, Process
                          Improvements Are Needed to Address Inconsistencies



    High and
    Enhanced
     Security          NIST 800-53
     Control             Security
     Number            Control Name         Requirement Description               Requirement Purpose
                                            The information system shall          Intended to prevent
                                            limit information system              unauthorized changes to
                            Access          developer/integrator privileges to    production systems.
         13             Restrictions for    change hardware, software, and
                           Change           firmware components and system
                                            information directly within the
                                            production environment.
                                            The information system shall          Existing Internal Revenue
                            Access          limit privileges to change            Manual requirements must
         14             Restrictions for    software resident within software     be in place for all IRS
                           Change           libraries (including privileged       systems.
                                            programs).
                                            The information system shall          Existing Internal Revenue
                                            employ cryptographic                  Manual requirements must
         15             Media Storage
                                            mechanisms to protect                 be in place for all IRS
                                            information in storage.               systems.
                                            The information system shall use      Existing Internal Revenue
                                            Federal Information Processing        Manual requirements must
                            Use of
         16                                 Standards validated cryptography      be in place for all IRS
                         Cryptography
                                            when cryptography is used to          systems.
                                            protect information.
                                            The information system shall          Intended to protect
                                            provide a readily observable          administrative web
                          Session
         17                                 logout capability whenever            interfaces and prevent
                         Authenticity
                                            authentication is used to gain        unauthorized access to the
                                            access to web pages.                  application/data.
                                            The information system shall          Intended to prevent the
                                            check incoming communications         introduction of malicious
                           Boundary         to ensure that the communications     traffic or unauthorized
         18
                           Protection       are coming from an authorized         access by an external
                                            source and routed to an               attacker.
                                            authorized destination.
Source: CADE 2 Program Transition State 1 National Institute of Standards and Technology 800-53 High and
Enhanced Control Requirements Discussion UPDATE, dated November 24, 2010.


                                                                                                      Page 31
                             The Customer Account Data Engine 2
                           Program Management Office Implemented
                      Systems Development Guidelines; However, Process
                     Improvements Are Needed to Address Inconsistencies


                                                                                 Appendix IX

                              Glossary of Terms

Term                  Definition
Authentication        The process of identifying an individual, usually based on a username
                      and password.
Business Rule         A statement that defines or constrains some aspect of the business (see
                      Business Rule Sets).
Business Rule Sets    A group of business rules related to a common topic or business
                      decision.
Configuration         Serves as the change approval authority for all baseline products
Control Board         developed at the Program and project levels.
Corporate Files       A system that provides online transactional access to IMF and Business
On-Line               Master File data, Information Return Program data, and various other
                      related data collections. These files are accessed via IRS-developed
                      Customer Information Control System command codes.
Critical Path         A sequence of activities that results in the completion of a project in the
                      shortest period of time.
Cryptography          The conversion of data into a secret code for transmission over a public
                      network.
Current Processing    The IRS’s existing entire information technology environment including
Environment           business applications, data stores, data interfaces and processing flows,
                      infrastructure, and information technology services, as well as involved
                      organizations, locations, processes, policies, and people.
Customer Account      A major component of the IRS’s Modernization Program. The system
Data Engine           consists of current and planned databases and related applications that
                      work with the IRS Master File system (see Master File).
Daily Processing      A project under the CADE 2 Program that, when completed, will change
Project (CADE 2)      weekly individual taxpayer account processing to daily processing.
Database              A project under the CADE 2 Program intended to implement the newest
Implementation        version of the relational database.
Project (CADE 2)

                                                                                          Page 32
                                   The Customer Account Data Engine 2
                                 Program Management Office Implemented
                            Systems Development Guidelines; However, Process
                           Improvements Are Needed to Address Inconsistencies


Term                          Definition
Delivery                      Provides Program management oversight and direction to the individual
Management Office             project offices. It coordinates and directs integration activities across
                              supplier organizations to ensure projects are delivered on schedule and
                              within budget. The office ensures that all component projects and
                              affected applications or systems operate inter-dependently at deployment
                              through assuring interfaces and impacts are clearly identified,
                              engineered, and implemented.
Enterprise                    A unifying overall design or structure for an enterprise that includes
Architecture                  business and organizational aspects of the enterprise as well as
                              technology aspects. Enterprise Architecture divides the enterprise into
                              its component parts and relationships and provides the principles,
                              constraints, and standards to help align business area development
                              efforts in a common direction. An Enterprise Architecture ensures that
                              subordinate architectures and business system components developed
                              within particular business areas and multiple projects fit together into a
                              consistent, integrated whole.
Enterprise Life Cycle A structured business systems development method that requires the
                      preparation of specific work products during different phases of the
                      development process.
Executive Steering            Committee with oversight responsibilities for investments, including
Committee                     validating major investment business requirements and ensuring that
                              enabling technologies are defined, developed, and implemented.
Financial                     The Federal Financial Management Improvement Act of 1996 (FFMIA)1
Management System             established financial management systems requirements intended to
Requirements                  advance Federal financial management by ensuring that Federal
                              management systems can and do provide reliable, consistent disclosure
                              of financial data. Agencies are required to determine whether their
                              financial management systems comply with the law. If the financial
                              systems do not comply (i.e., they contain financial material weaknesses),
                              the agency is required to develop a remediation plan that describes the
                              resources, remedies, and intermediate target dates for achieving
                              compliance.




1
    Pub. L. No. 104-208, 110 Stat. 3009.
                                                                                                  Page 33
                             The Customer Account Data Engine 2
                           Program Management Office Implemented
                      Systems Development Guidelines; However, Process
                     Improvements Are Needed to Address Inconsistencies


Term                  Definition
Financial Material    If an agency’s financial management systems do not comply with the
Weaknesses            Federal Financial Management Improvement Act of 1996, the systems
                      contain financial material weaknesses. The agency must develop a
                      remediation plan that describes the resources, remedies, and intermediate
                      target dates for achieving compliance.
Firmware              The fixed, usually rather small, programs that internally control various
                      electronic devices.
Framework             A structure that facilitates understanding of a complex topic by breaking
                      the topic into multiple pieces or features, classifying the features,
                      illustrating relationships between the features, and organizing them in a
                      manner that facilitates visualization and practical usage.
Governance Board      Exists to ensure that the Program goals are achieved and that the
                      Program and component projects are delivering within their defined
                      scope, schedule, and budget. Additionally, the Governance Board
                      approves risk response plans and milestone exits and resolves escalated
                      issues.
Individual Master     The IRS database that maintains transactions or records of individual
File                  tax accounts.
Infrastructure        The fundamental structure of a system or organization. The basic,
                      fundamental architecture of any system (electronic, mechanical, social,
                      political) determines how it functions and how flexible it is to meet
                      future requirements.
Integrated Data       The IRS computer system capable of retrieving or updating stored
Retrieval System      information; it works in conjunction with a taxpayer’s account records.
Integrated            Intended to be a data store to meet IRS needs for data analytics and
Production Model      long-term reporting and as a source for other types of analytic data that
                      supplement the transactional core data store.
Item Tracking         An information system used to track and report on issues, risks, and
Reporting and         action items in the modernization effort.
Control System
Master File           The IRS database that stores various types of taxpayer account
                      information. This database includes individual, business, and employee
                      plans and exempt organizations data.



                                                                                         Page 34
                                The Customer Account Data Engine 2
                              Program Management Office Implemented
                         Systems Development Guidelines; However, Process
                        Improvements Are Needed to Address Inconsistencies


Term                     Definition
Milestone                Scheduled time period for providing a “go/no-go” decision point in a
                         program or project (can be associated with funding approval to proceed).
National Institute of    A nonregulatory Federal agency, within the Department of Commerce,
Standards and            responsible for developing standards and guidelines, including minimum
Technology               requirements, for providing adequate information security for all
                         Federal Government agency operations and assets.
Rational                 An application used for requirements management. The IRS has
RequisitePro             established ReqPro as its Enterprise Architecture standard for
                         requirements management. It is used to capture detailed requirement
                         data such as the requirement text and any supporting attributes to
                         organize or clarify the requirement. The application also has the
                         capability to create and maintain full requirements traceability within a
                         single project or across multiple projects.
Relational Database      A collection of data items organized as a set of formally described tables
                         from which data can be accessed or reassembled in many different ways
                         without having to reorganize the database tables.
Requirement              A formalization of a need and statement of a capability or condition that
                         a system must have or meet to satisfy a contract, standard, or
                         specification.
SharePoint               A web-based repository that the IRS uses to store and control
                         organizational products and documentation.
Stakeholders             An individual or organization that is materially affected by the outcome
                         of the system. Key stakeholders represent both business and technical
                         functions that fully participate in the architecture development effort to
                         ensure that directional guidance is both accurate and sufficient. These
                         stakeholders are empowered to make project and architectural decisions.
                         Examples of project stakeholders include the customer, the user group,
                         the project manager, the development team, and the testers.
Traceability             Describes the life of a requirement from the initial source through its
                         development and actual deployment into operations.




                                                                                            Page 35
              The Customer Account Data Engine 2
            Program Management Office Implemented
       Systems Development Guidelines; However, Process
      Improvements Are Needed to Address Inconsistencies


                                                 Appendix X

Management’s Response to the Draft Report




                                                       Page 36
        The Customer Account Data Engine 2
      Program Management Office Implemented
 Systems Development Guidelines; However, Process
Improvements Are Needed to Address Inconsistencies




                                                 Page 37
        The Customer Account Data Engine 2
      Program Management Office Implemented
 Systems Development Guidelines; However, Process
Improvements Are Needed to Address Inconsistencies




                                                 Page 38
                               The Customer Account Data Engine 2
                             Program Management Office Implemented
                        Systems Development Guidelines; However, Process
                       Improvements Are Needed to Address Inconsistencies
 


Draft Report - The Customer Account Data Engine 2 Program Management Office
Implemented Systems Development Guidelines; However, Process Improvements Are
Needed to Address Inconsistencies 201020025
RECOMMENDATION #4 The Chief Technology Officer should ensure all requirements and
business rules are identified and sufficiently traced, controlled, and managed in ReqPro prior to
initiating any CADE 2 system testing processes to ensure the system functions as designed when
deployed into IRS operations. This should include the Daily Processing and Database
Implementation.

CORRECTIVE ACTION #4: We agree with this recommendation and have already stood up a
RequisitePro (ReqPro) Repository in November 2010 which contains requirements and business
rules for the DP and DI projects. This repository is referred to as the CADE 2 Program ReqPro
repository. All requirements are traced vertically down the hierarchy. Requirements are also
traced horizontally to other disciplines such as CM, Design, etc through reference requirements.
The IA&E logical CADE 2ReqPro repository houses all infrastructure requirements, which
includes requirements for DI and DP. These requirements are traced to the CADE 2 Program
ReqPro repository through cross-project traceability.

The PMO also drafted a Program Requirements Management Plan (RMP) which outlined the
processes of managing requirements and tracing requirements. There was a Program Integrated
Requirements Review (PIRR) conducted in December 2010 to ensure that all requirements were
traced and complete in the CADE 2 Program repository. This also ensured that the cross-project
traceability existed between the IA&E Repository and the CADE 2 Program repository.

The Program efficiently and regularly monitors the data in the repository. The Program conducts
an Integrated Requirements Team (IRT) meeting weekly, where we present metrics to all the
delivery partners. These metrics include requirements counts, requirements volatility,
requirements completeness, and untraced requirements. If there are requirements that are not
traced, an action is given to the project to establish the trace.

IMPLEMENTATION DATE: Completed December 31, 2010.

RECOMMENDATION #5 The Chief Technology Officer should implement controls to ensure
that CADE 2 Program stakeholders:
          a. Cannot remove and work on requirements outside of ReqPro.
          b. Use ReqPro to create, input, and control requirements.

CORRECTIVE ACTION #5:
We agree with the spirit and intent of this recommendation and since the implementation of the
CADE 2 Requirements repository, RADM requirements analysts have begun working directly in
ReqPro. Using ReqPro to input and control requirements are part of our approach to managing




                                                                                             Page 39
                               The Customer Account Data Engine 2
                             Program Management Office Implemented
                        Systems Development Guidelines; However, Process
                       Improvements Are Needed to Address Inconsistencies
 
Draft Report - The Customer Account Data Engine 2 Program Management Office
Implemented Systems Development Guidelines; However, Process Improvements Are
Needed to Address Inconsistencies 201020025
requirements. However, prior to baselining the requirements, it was essential that IRS have a tool
to create requirements prior to baselining them for configuration control. RADM provides
business-friendly tools (compatible with ReqPro) which enables creation of requirements which
can be imported into ReqPro. Requirements imported into ReqPro will be considered baselined.
Since all requirements are baselined and are under CM control, all changes to requirements go
through CRs. The program requirements team ensures that the requirements are input and
controlled within ReqPro by using the CR Tracking spreadsheet. The CR tracking spreadsheet
keeps track of actions to create or update a requirement based on a CR. We ensure that these
changes are made in the ReqPro repository.

The capability to export requirements does exist; these reports are extracted for reporting
purposes only and are not manipulated. We have also provided training to requirements analysts
so they are comfortable working within ReqPro. We have a monthly User Group meeting which
trains users on advanced topics on the use of ReqPro.

IMPLEMENTATION DATE: Completed December 31, 2010.




                                                                                             Page 40
